                   AUDIT REPORT

                 Audit of NRC’s Purchase Card Program

                       OIG-11-A-13       May 31, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  May 31, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits



SUBJECT:                    AUDIT OF NRC’S PURCHASE CARD PROGRAM
                            (OIG-11-A-13)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Purchase Card Program.

The report presents the results of the subject audit. Agency comments provided at the
April 19, 2011, exit conference have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Kathleen Stetson, Team Leader, Financial and Administrative Audit Team,
at 415-8175.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
and Preparedness Programs, OEDO
Mary C. Muessle, Acting Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                                      Audit of NRC’s Purchase Card Program




EXECUTIVE SUMMARY

          BACKGROUND

                  The Governmentwide Purchase Card Program was established in the late
                  1980s as a way for agencies to streamline the Federal acquisition
                  processes by providing a low-cost, efficient vehicle for obtaining goods
                  and services directly from vendors. Purchase cards can be used for
                  micro-purchases, 1 as well as to place orders and make payments on
                  contract activities.

                  The General Services Administration (GSA) administers the
                  Governmentwide Purchase Card Program. GSA contracts with several
                  banks, including Citibank — the bank used by the Nuclear Regulatory
                  Commission (NRC) — to provide purchase cards to Federal employees.

                  Oversight of the Governmentwide Purchase Card Program is also the
                  responsibility of the Office of Management and Budget (OMB). In August
                  2005, OMB issued Appendix B to Circular A-123, Improving the
                  Management of Government Charge Card Programs. 2 Appendix B
                  established minimum requirements and suggested best practices for
                  agency purchase card programs.

                  In February 2011, NRC issued a revised Purchase Card Handbook (the
                  Handbook) — originally issued in July 1994 — as the agency guidance for
                  employees participating in the Governmentwide Purchase Card Program.

                  The Office of Administration (ADM) is responsible for oversight of NRC’s
                  Purchase Card Program. ADM has a designated Agency Purchase Card
                  Program Coordinator (Coordinator) who is responsible for day-to-day
                  program management. The Coordinator provides oversight of the
                  Purchase Card Program and serves as the liaison between cardholders
                  and the contracting bank.

1
  A micro-purchase is an acquisition of supplies or services not subject to the Service Contract Act in
which the aggregate amount does not exceed $3,000. For services subject to the Service Contract Act
the amount cannot exceed $2,500. For construction projects subject to the Davis-Bacon Act the limit is
$2,000.
2
    OMB Circular A-123, Appendix B, was last revised on January 15, 2009.


                                                    i
                                                                      Audit of NRC’s Purchase Card Program

                 From December 1, 2008, through March 31, 2010, NRC had about
                 160 purchase cardholders who incurred transactions totaling
                 approximately $8.3 million. 3


          PURPOSE

                 The audit objective was to determine whether NRC has established and
                 implemented an effective system of internal control over the use of
                 Federal purchase cards.


          RESULTS IN BRIEF

                 Overall, NRC has established a Purchase Card Program that streamlines
                 Federal acquisition processes by providing an efficient vehicle for
                 obtaining goods and services directly from vendors. However, the Office
                 of the Inspector General (OIG) identified opportunities for improvement.
                 Specifically:

                     A. Employees are not consistently following agency Purchase Card
                        Program guidance.

                     B. Employees appear to be making split transactions 4 and using
                        convenience checks improperly.

                     C. The agency’s cardholder records are incomplete.

                 Addressing these concerns will strengthen NRC’s internal control over
                 Federal purchase cards.


          RECOMMENDATIONS

                 This report makes recommendations to improve the agency’s Purchase
                 Card Program. A list of these recommendations appears on page 17 of
                 this report.
3
    As of December 15, 2010, NRC had approximately 131 cardholders.
4
  A split transaction occurs when purchases are made on the same day from the same vendor to
circumvent cardholder single transaction limits.

                                                  ii
                                                 Audit of NRC’s Purchase Card Program



AGENCY COMMENTS

     OIG met with NRC management officials and staff during an
     April 19, 2011, exit conference at which time the agency provided informal
     comments. On April 26, 2011, OIG provided a revised draft report to the
     agency along with documentation requested by the agency regarding the
     exceptions identified during the audit. OIG met with agency management
     and staff on May 2, 2011, to discuss additional suggested changes to the
     report; subsequently, OIG incorporated additional informal comments into
     the draft report as appropriate. NRC staff reviewed the revised draft
     report and opted not to provide formal comments.




                                  iii
                                              Audit of NRC’s Purchase Card Program




ABBREVIATIONS AND ACRONYMS



       ADM         Office of Administration

       GSA         General Services Administration

       NRC         Nuclear Regulatory Commission

       OIG         Office of the Inspector General

       OMB         Office of Management and Budget




                            iv
                                                                       Audit of NRC’s Purchase Card Program




TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i

        ABBREVIATIONS AND ACRONYMS ................................................... iv

        I.    BACKGROUND .............................................................................. 1

        II.   PURPOSE ...................................................................................... 3

        III. FINDINGS ...................................................................................... 3

                 A. AGENCY GUIDANCE IS NOT CONSISTENTLY FOLLOWED ................ 4

                 B. SPLIT TRANSACTIONS AND THE IMPROPER USE OF CONVENIENCE
                    CHECKS APPEAR TO BE OCCURRING ........................................... 8

                 C. CARDHOLDER RECORDS ARE INCOMPLETE ............................... 14

        IV. CONSOLIDATED LIST OF RECCOMENDATIONS ..................... 17

        V.    AGENCY COMMENTS................................................................. 18


    APPENDIX

        SCOPE AND METHODOLOGY .......................................................... 19




                                                  v
                                                                      Audit of NRC’s Purchase Card Program



I.        BACKGROUND

                  The Governmentwide Purchase Card Program was established in the late
                  1980s as a way for agencies to streamline the Federal acquisition
                  processes by providing a low-cost, efficient vehicle for obtaining goods
                  and services directly from vendors. Purchase cards can be used for
                  micro-purchases, 5 as well as to place orders and make payments on
                  contract activities.

                  The General Services Administration (GSA) administers the
                  Governmentwide Purchase Card Program. GSA contracts with several
                  banks, including Citibank — the bank used by the Nuclear Regulatory
                  Commission (NRC) — to provide purchase cards to Federal employees.

                  Oversight of the Governmentwide Purchase Card Program is also the
                  responsibility of the Office of Management and Budget (OMB). In August
                  2005, OMB issued Appendix B to Circular A-123, Improving the
                  Management of Government Charge Card Programs. 6 Appendix B
                  established minimum requirements and suggested best practices for
                  agency purchase card programs. In addition, Appendix B requires that
                  each agency develop and maintain written policies and procedures for the
                  appropriate use of Government purchase cards.

                  In February 2011, NRC issued a revised Purchase Card Handbook (the
                  Handbook) — originally issued in July 1994 — as the agency guidance for
                  employees participating in the Governmentwide Purchase Card Program.
                  The Handbook contains guidance on how to obtain an NRC purchase
                  card, reconcile purchase card records, obtain spending limit increases,
                  and close purchase card accounts. In addition, the Handbook specifies
                  procedures for tagging accountable property7 bought with a purchase

5
  A micro-purchase is an acquisition of supplies or services not subject to the Service Contract Act in
which the aggregate amount does not exceed $3,000. For services subject to the Service Contract Act
the amount cannot exceed $2,500. For construction projects subject to the Davis-Bacon Act the limit is
$2,000.
6
    OMB Circular A-123, Appendix B, was last revised on January 15, 2009.
7
  Accountable property is all personal property considered nonexpendable that has an expected useful life
of 2 years or longer and with an acquisition value, as determined by the agency policy, that warrants
tracking in the agency’s property records.


                                                    1
                                                                      Audit of NRC’s Purchase Card Program

                  card, purchasing items that need prior approval, and using convenience
                  checks 8 issued under the Purchase Card Program.

                  The Office of Administration (ADM) is responsible for oversight of NRC’s
                  Purchase Card Program. ADM has a designated Agency Purchase Card
                  Program Coordinator (Coordinator) who is responsible for day-to-day
                  program management. The Coordinator provides oversight of the
                  purchase card program and serves as the liaison between cardholders
                  and the contracting bank. Other Coordinator responsibilities include:

                      Establishing policies, procedures, and training requirements.

                      Setting up new cardholder accounts, reissuing expired cards, and
                       canceling inactive accounts.

                      Providing ongoing guidance and information to cardholders and
                       approving officials on the appropriateness of proposed purchases.

                      Conducting annual reviews of cardholder purchase card records to
                       ensure that the program is operating in accordance with applicable
                       guidance.

                  From December 1, 2008, through March 31, 2010, NRC had about
                  160 purchase cardholders who incurred transactions totaling
                  approximately $8.3 million. 9




8
    Convenience checks are checks written against a purchase card account.
9
    As of December 15, 2010, NRC had approximately 131 cardholders.


                                                    2
                                                                   Audit of NRC’s Purchase Card Program



II.    PURPOSE

               The audit objective was to determine whether NRC has established and
               implemented an effective system of internal control over the use of
               Federal purchase cards. The report Appendix contains information on the
               audit scope and methodology.



III.   FINDINGS

               Overall, NRC has established a Purchase Card Program that streamlines
               Federal acquisition processes by providing an efficient vehicle for
               obtaining goods and services directly from vendors. However, the Office
               of the Inspector General (OIG) identified opportunities for improvement.

               Specifically:

               A. Employees are not consistently following agency Purchase Card
                  Program guidance.

               B. Employees appear to be making split transactions 10 and using
                  convenience checks improperly.

               C. The agency’s cardholder records are incomplete.

               Addressing these concerns will strengthen NRC’s internal control over
               Federal purchase cards.




10
   A split transaction occurs when purchases are made on the same day from the same vendor to
circumvent cardholder single transaction limits.

                                                 3
                                                  Audit of NRC’s Purchase Card Program



A. Agency Guidance Is Not Consistently Followed

     NRC staff involved with the Purchase Card Program are not consistently
     following procedures for closing purchase card accounts, tagging property,
     and requesting spending limit increases as required by the Purchase Card
     Handbook. These conditions exist because NRC guidance has not been
     consistently communicated to cardholders and approving officials. As a
     result, the agency is at increased risk of fraud, waste, and asset
     misappropriation.

     NRC Purchase Card Handbook Procedures

     The Handbook describes specific requirements for closing purchase card
     accounts, tagging accountable property, and requesting spending limit
     increases.

     Closing Purchase Card Accounts

     The Handbook describes the requirements for closing NRC purchase card
     accounts. Specifically, if a cardholder leaves the agency, NRC Form 270,
     Separation Clearance, must be signed by the Coordinator and the
     cardholder must return the purchase card, cut in half, to the Coordinator.
     In addition, the Handbook states that if a cardholder transfers positions
     within the agency and the new position does not require the use of a
     purchase card, the cardholder must notify the Director, ADM, in writing
     (with a copy to the cardholder’s Office Director) and return the purchase
     card cut in half.

     Agency officials stated that the preceding requirements apply only to
     headquarters employees and that regional offices maintain their own
     separation procedures for employees who leave the agency. The
     Handbook, however, does not distinguish between procedures at
     headquarters and the regions. At the conclusion of this audit, agency
     officials stated that the Handbook will be updated to include procedures
     for closing accounts for purchase cardholders in the regions.




                                   4
                                               Audit of NRC’s Purchase Card Program



Tagging Property

The Handbook specifies that when accountable property is acquired using
an NRC purchase card, the cardholder has a responsibility to ensure that
the information regarding that property is reported to the designated office
property custodian. The property custodian completes a tagging data
sheet, attaches the purchase documentation, and forwards the information
to the Property and Labor Services Branch in ADM. Property custodians
are responsible for ensuring that property is reported to the Property and
Labor Services Branch before approving officials approve the
reconciliation of transactions.

Requesting Spending Limit Increases

The Handbook describes the requirements for assigning and temporarily
increasing spending limits on NRC purchase cards. There are two types
of spending limit thresholds: (1) single-purchase limit and (2) 30-day limit.

A single-purchase threshold is established to limit the maximum amount
that a cardholder may spend in a single transaction. The single purchase
may consist of multiple items, but the total purchase amount cannot
exceed the micro-purchase threshold. If an office needs to purchase
multiple items or services at a given time and the total dollar amount
exceeds the threshold, the cardholder’s office should submit a request for
procurement action to ADM for processing. The only exception is for
external training. If a cardholder anticipates exceeding the single-
purchase threshold when purchasing training, the cardholder must contact
the Coordinator to request a temporary increase to the single-purchase
threshold to cover the cost of the training registration.

A 30-day limit is also established for each cardholder's cumulative
purchases in a given 30-day billing cycle. The cardholder’s division
director establishes this limit based on budget considerations and
anticipated usage. If a temporary increase in the 30-day limit is needed,
the cardholder’s approving official should contact the Coordinator by
e-mail to request the increase.




                               5
                                              Audit of NRC’s Purchase Card Program

Procedures Not Consistently Followed

NRC staff involved with the Purchase Card Program are not consistently
following procedures for closing purchase card accounts, tagging property,
and requesting spending limit increases.

Closing Purchase Card Accounts

Cardholders did not consistently notify the Coordinator when cardholders
separated from the agency, thereby leaving inactive accounts open for an
extended amount of time. During the time period reviewed, four of eight
accounts were closed 30 days or more after the employee separated from
the agency.

OIG was also notified that cardholders who transferred to positions within
the agency who no longer needed a purchase card or separated from the
agency were disposing of the cards themselves. This was done at the
direction of the Coordinator, who also would cancel the accounts.

Tagging Property

Property bought using an NRC purchase card is not consistently tagged.
The agency conducted a physical inventory of NRC property from May 20,
2010, through August 27, 2010, and determined that 416 of 6,839 property
items reviewed were not tagged. An agency official who conducted the
inventory stated that these untagged items resulted from purchases made
by purchase cardholders without informing their respective property
custodian.

At the conclusion of this audit, agency officials informed OIG that they had
revised the Handbook section related to the tagging of property. The
revised version of the Handbook states that purchase card approving
officials and cardholders are responsible for ensuring that property is
reported to the office property custodian. Agency officials believe that this
change will make the internal control over tagging of property purchased
using a purchase card more effective.




                               6
                                              Audit of NRC’s Purchase Card Program



Requesting Spending Limit Increases

Agency cardholders are not consistently including 30-day spending limit
e-mail requests in their records. OIG reviewed records of 21 cardholders
who exceeded their 30-day spending limit from December 1, 2008,
through March 31, 2010. OIG was not provided with supporting e-mail
documentation of the approved increases for 20 of 56 billing cycles for
11 cardholders.

Agency Guidance Not Consistently Communicated; NRC May
Be At Risk

Some areas of NRC guidance have not been consistently communicated
by agency officials in charge of the program to cardholders and approving
officials. Agency officials acknowledged that NRC can do a better job of
communicating the purchase card guidance to cardholders and approving
officials, especially in the areas related to closing of accounts, tagging of
property, and spending limit increases. Without consistent communication
of purchase card guidance, agency cardholders and approving officials
may not be fully aware of the requirements for closing accounts,
purchasing and tagging property, and increasing spending limits, thereby
increasing the risk of fraud, waste, and asset misappropriation.


Recommendation

OIG recommends that the Executive Director for Operations:

1. Issue periodic reminders to cardholders and approving officials to
   reiterate the requirements for closing accounts, tagging property, and
   increasing spending limits.




                               7
                                                  Audit of NRC’s Purchase Card Program



B. Split Transactions and the Improper Use of Convenience Checks
   Appear To Be Occurring

     Federal and agency requirements prohibit cardholders from making split
     transactions using purchase cards and authorize the use of convenience
     checks only under specific conditions. Despite these requirements,
     employees appear to be making split transactions to acquire office
     supplies and services, and using convenience checks when such use is
     not authorized. These situations are occurring because (1) the NRC
     Purchase Card Handbook does not provide sufficient clear examples of
     “split transactions” and does not define the term “miscellaneous expense,”
     and (2) there is not a documented mechanism in place to enforce the
     existing requirements. The use of split transactions may hinder the
     agency’s ability to get the best price on its purchases. Additionally, the
     improper use of convenience checks results in unnecessary costs to the
     Government.

     Guidance Regarding Split Transactions and the Use of
     Convenience Checks

     Federal and agency guidance prohibit cardholders from making split
     transactions using purchase cards and authorize the use of convenience
     checks only under specific conditions.

     Split Transactions

     The Handbook defines and contains specific requirements for avoiding
     split transactions. Specifically, Appendix 8 of the Handbook, Guidance on
     Avoidance of Split Purchase Card Transactions, defines a split transaction
     as any purchase that, as a whole, exceeds the micro-purchase limit, but is
     separated into smaller transactions to avoid that limit. A common indicator
     of a split transaction is multiple transactions with the same vendor for the
     same items on the same day (or within a period of a few days), where the
     total amount of the transactions exceeds the micro-purchase limit. The
     Handbook states that split transactions are prohibited.




                                   8
                                            Audit of NRC’s Purchase Card Program

Convenience Checks

OMB Circular A-123, Appendix B, authorizes the use of convenience
checks only under specific conditions. The circular specifies that
convenience checks are a payment and/or procurement tool intended only
for use with merchants that do not accept purchase cards and for other
authorized purposes where charge cards are not accepted. Convenience
checks should be used as a payment method of last resort, only when no
reasonable alternative merchant is available who accepts the charge card.
The circular also states that convenience checks may be written only to
vendors who do not accept purchase cards, for emergency incident
response, and for other agency approved purposes that comply with the
Debt Collection Improvement Act of 1996.

The Handbook also has specific requirements for the use of convenience
checks. Appendix 6 of the Handbook, Convenience Check Procedures,
states that “a convenience check is used for a miscellaneous expense
purchase in which the merchant does not accept the Government
purchase card.”

Split Transactions and the Improper Use of Convenience
Checks Appear To Be Occurring

Despite Federal and agency requirements, agency cardholders are
making purchases that have the appearance of being split transactions to
acquire office supplies and services, and using convenience checks when
such use is not authorized.

Split Transactions

NRC purchase cardholders sometimes use the cards to make purchases
that appear to be split transactions. OIG reviewed purchase card
transactions that occurred from December 1, 2008, through March 31,
2010. Of those transactions, OIG reviewed the supporting documentation
for 180 transactions made by 19 cardholders from 14 different NRC
offices. OIG identified 25 transactions from 8 different offices that
appeared to be split transactions.

For example, split transactions that appear to be occurring within NRC are
for the purchase of software licenses. In these cases, an NRC employee


                             9
                                              Audit of NRC’s Purchase Card Program

makes separate requests for the same software license, for two separate
individuals, within the same agency office on the same day. A cardholder
then purchases both licenses from the same vendor. Individually, the
orders are less than the micro-purchase limit of $3,000; however, together
the total exceeds that limit.

Convenience Checks

OIG’s review of records also identified examples of improper convenience
check use. OIG examined 126 purchase card convenience check
transactions and identified 58 transactions that fell outside of the specified
requirements in Federal and agency guidance (see figure, below).
Specifically, OIG identified 38 convenience check transactions that were
executed even though the vendor accepted the use of a purchase card.
These transactions totaled about $17,742 and incurred check fees of
approximately $475. In addition, OIG identified 20 convenience check
transactions executed where the transaction could have been construed
as not being a “miscellaneous expense.” These transactions totaled about
$27,765 and incurred check fees of approximately $662.

       OIG Review of Convenience Check Transactions,
          December 1, 2008, Through March 31, 2010
                          (n=126)




                                              Source: OIG Analysis


                              10
                                              Audit of NRC’s Purchase Card Program



For example, there were 15 instances where a convenience check was
used instead of the purchase card for the annual renewal of post office
boxes, even though most U.S. Postal Service locations accept credit
cards. OIG identified unnecessary fees of approximately $61 associated
with these transactions.

As an example of a convenience check used to pay for a transaction that
could have been construed as non-miscellaneous expense, OIG identified
a transaction involving a vendor who provided audio/videotaping for two
public meetings. NRC used convenience checks to pay for the service
because the company did not accept credit cards. However, this activity
may not be considered a miscellaneous expense because NRC could
have used the procurement process to contract for audio/videotaping
services. The agency could have easily used a purchase order to pay for
the service.

Agency Guidance Not Clear and No Effective Mechanism To
Enforce Existing Requirements

Potential violations of agency policies and procedures for split transactions
and convenience checks are occurring because the Handbook does not
have (1) enough clear examples of split-transactions and (2) a definition of
miscellaneous expense as related to the use of convenience checks.
Moreover, there is not a documented mechanism in place to enforce the
existing requirements.

The Handbook does not have enough clear examples of split transactions
to ensure that readers understand the concept. Although Appendix 8 of
the Handbook gives a brief definition of a split purchase along with three
example scenarios, agency officials acknowledge that there need to be
more clear scenarios to address different split transaction circumstances.

Further, for convenience checks, Appendix 6 of the Handbook does not
give any explanation, definition, or examples of a miscellaneous expense.
Without a clear definition of miscellaneous expense, agency cardholders
use individual interpretations of the term. An agency official
acknowledged that the definition of miscellaneous expense needs to be
included in the Handbook. However, other agency officials stated that the
requirement for the expense to be miscellaneous is not part of the


                              11
                                              Audit of NRC’s Purchase Card Program

guidance included in OMB Circular A-123, Appendix B, and the term
“miscellaneous expense” should be deleted from the Handbook.

The agency also does not have a documented mechanism in place to
enforce existing requirements regarding split transactions and
convenience checks. Although the agency conducts quarterly audits of a
sample of purchase card transactions, an OIG review of these audits
revealed that potential violations involving split transactions and the
improper use of convenience checks are being overlooked because the
agency manually conducts monitoring of these transactions. Federal
Government best practices suggest the continuous monitoring of all
transactions to assist in identifying potential violations of requirements. By
using an automated tool, the Coordinator would be better able to identify
those transactions that need scrutiny while minimizing the analysis of
transactions that fall within the purchase card policy. Agency officials
acknowledge that a computerized approach to continuous monitoring may
be more effective in identifying these types of potential violations.

Ability To Obtain Best Price May Be Hindered; Unnecessary
Cost to Government

The use of split transactions and the improper use of convenience checks
results in unnecessary expense to the agency. Split transactions may not
allow the agency to obtain the best price on its purchases because agency
cardholders are circumventing the procurement process, which may allow
for volume discounts. Moreover, the improper use of convenience checks
results in unnecessary check fee costs to the Government. Although
these check fees may seem minimal on a per transaction basis, they can
become significant when totaled over a number of years.




                              12
                                            Audit of NRC’s Purchase Card Program

Recommendations

OIG recommends that the Executive Director for Operations:

2. Update the NRC Purchase Card Handbook to include more clear
   examples of split transactions and a detailed definition and examples
   of miscellaneous expenses in the discussion of convenience checks.

3. Revise the purchase card training course to incorporate more clear
   examples of split transactions and a detailed definition and examples
   of miscellaneous expenses in the discussion of convenience checks.

4. Document procedures requiring (1) the continuous monitoring of NRC
   purchase card transactions to assess whether split transactions are
   occurring and convenience checks are being used improperly and
   (2) follow up with NRC offices that are not following the agency’s
   requirements.




                             13
                                                 Audit of NRC’s Purchase Card Program



C. Cardholder Records Are Incomplete

     Although Federal and agency guidance define recordkeeping
     requirements for the Purchase Card Program, the agency does not
     maintain complete records of NRC purchase cardholders and their
     delegations of authority. These records are not being properly maintained
     because the agency does not have documented procedures in place to
     maintain such records. As a result, NRC staff may not have proper
     authority to use purchase cards, which could lead to fraud, waste, and
     abuse.

     Recordkeeping Requirements

     OMB Circular A-123, Appendix B, defines the recordkeeping requirements
     for Government Purchase Card Programs. The circular stipulates that
     part of the general responsibilities of Purchase Card Program
     management is to oversee the establishment and maintenance of master
     file/official cardholder records.

     The Handbook expands on the recordkeeping requirements for
     convenience checks under the Purchase Card Program. Specifically, the
     Handbook guidance states that convenience checks issued under the
     Purchase Card Program are subject to all the regulations and restrictions
     of the purchase card. According to agency Purchase Card Program
     Management, this requirement includes the issuance of delegations of
     authority for check writers.

     Purchase Card Records Not Complete

     Although Federal and agency guidance define recordkeeping
     requirements for the Purchase Card Program, the agency does not
     maintain complete records of the number of NRC purchase cardholders
     and their delegations of authority. OIG compared the list of cardholders
     maintained by NRC Purchase Card Program management with a list
     generated from Citibank records and cardholder delegations of authority.
     OIG identified 20 of 160 cardholders for which cardholder information was
     missing from the information reviewed (see table, next page). Moreover,
     agency program management was not able to provide the delegations of
     authority for the designated check writers for convenience checks.

                                  14
                                                               Audit of NRC’s Purchase Card Program



               Comparison of NRC Cardholder Records From Different Sources for
                 Transactions from December 1, 2008, Through March 31, 2010 11

                                     Description                                   Number of
                                                                                  Occurrences
         Cardholders that had activity with Citibank but did not appear on the                 1
         list provided by Purchase Card Management and had no delegation
         of authority
         Cardholders that had activity with Citibank and appear on the list                    3
         provided by Purchase Card Management but had no delegation of
         authority
         Cardholders that had activity with Citibank and had a delegation of                   1
         authority but did not appear on the list provided by Purchase Card
         Management
         Cardholders that appeared on the list provided by Purchase Card                     13
         Management but did not have a delegation of authority and did not
         have activity with Citibank
         Cardholders that had delegations of authority but did not appear on                   2
         the list provided by Purchase Card Management and did not have
         activity with Citibank
         Total                                                                               20
                                                                            Source: OIG Analysis

              No Procedures in Place To Maintain Records; Staff May Not Have
              Proper Authority

              Agency purchase cardholder records are incomplete because the agency
              does not have documented procedures in place to maintain such records.
              NRC Purchase Card Program management stated that they currently use
              the Handbook as the guidance for operating the program. This lack of
              documented internal recordkeeping procedures has led to incomplete
              cardholder records and may result in agency staff not having the proper
              authority to use purchase cards and write convenience checks. Improper
              authority to use NRC purchase cards increases the agency’s risk of
              individuals committing fraud, waste, and abuse.




11
 There were approximately 160 NRC purchase cardholder records from December 1, 2008, through
March 31, 2010.

                                              15
                                           Audit of NRC’s Purchase Card Program

Recommendations

OIG recommends that the Executive Director for Operations:

5. Develop desk procedures for agency Purchase Card Program
   management to ensure complete records of purchase cardholder and
   designated check writer information.

6. Document periodic reconciliations of Citibank active accounts and
   NRC’s master file on official cardholder records.




                            16
                                                       Audit of NRC’s Purchase Card Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          1. Issue periodic reminders to cardholders and approving officials to
             reiterate the requirements for closing accounts, tagging property, and
             increasing spending limits.

          2. Update the NRC Purchase Card Handbook to include more clear
             examples of split transactions and a detailed definition and examples
             of miscellaneous expenses in the discussion of convenience checks.

          3. Revise the purchase card training course to incorporate more clear
             examples of split transactions and a detailed definition and examples
             of miscellaneous expenses in the discussion of convenience checks.

          4. Document procedures requiring (1) the continuous monitoring of NRC
             purchase card transactions to assess whether split transactions are
             occurring and convenience checks are being used improperly and
             (2) follow up with NRC offices that are not following the agency’s
             requirements.

          5. Develop desk procedures for agency Purchase Card Program
             management to ensure complete records of purchase cardholder and
             designated check writer information.

          6. Document periodic reconciliations of Citibank active accounts and
             NRC’s master file on official cardholder records.




                                       17
                                                      Audit of NRC’s Purchase Card Program



V.   AGENCY COMMENTS

      OIG met with NRC management officials and staff during an April 19, 2011,
      exit conference at which time the agency provided informal comments. On
      April 26, 2011, OIG provided a revised draft report to the agency along with
      documentation requested by the agency regarding the exceptions identified
      during the audit. OIG met with agency management and staff on May 2,
      2011, to discuss additional suggested changes to the report; subsequently,
      OIG incorporated additional informal comments into the draft report as
      appropriate. NRC staff reviewed the revised draft report and opted not to
      provide formal comments.




                                       18
                                                   Audit of NRC’s Purchase Card Program

                                                                            Appendix
SCOPE AND METHODOLOGY

       The audit objective was to determine whether NRC has established and
       implemented an effective system of internal control over the use of
       Federal purchase cards. The audit focused on reviewing documentation
       for NRC purchase card transactions and meeting with individuals who
       have participated in the NRC Purchase Card Program.

       OIG reviewed Federal guidance pertaining to the administration of
       purchase card programs, including OMB Circular A-123, Appendix B,
       Improving the Management of Government Charge Card Programs, and
       other Federal guidance on internal control and program management.
       Additionally, OIG considered pertinent internal agency Purchase Card
       Program documents, including the Purchase Card Handbook and
       Management Directive 11.1, NRC Acquisition of Supplies and Services.
       Lastly, OIG reviewed previously issued Federal audit reports addressing
       issues related to other agencies’ purchase card programs.

       OIG interviewed management officials in ADM and the Office of the Chief
       Financial Officer to obtain their insights into the implementation and
       oversight of the Purchase Card Program. Additional interviews were
       conducted with cardholders and approving officials from headquarters and
       the regions.

       OIG also conducted record reviews during the course of the audit.
       Specifically, the audit team reviewed supporting documentation for NRC
       purchase card transactions from December 1, 2008, through March 31,
       2010. Supporting documentation included purchase card transaction
       receipts; delegations of authority; NRC Form 572, NRC Purchase Card
       Log; and NRC Form 30, Request for Administrative Services. OIG
       reviewed these documents to determine if purchase cardholders were
       retaining the appropriate records in accordance with Federal and agency
       guidance and whether ADM is appropriately overseeing the Purchase
       Card Program.




                                   19
                                            Audit of NRC’s Purchase Card Program



We conducted this performance audit at NRC headquarters from
July 2010 through January 2011 in accordance with generally accepted
Government auditing standards. Those standards require that the audit is
planned and performed with the objective of obtaining sufficient,
appropriate evidence to provide a reasonable basis for any findings and
conclusions based on the stated audit objective. OIG believes that the
evidence obtained provides a reasonable basis for the report findings and
conclusions based on the audit objective. Internal controls related to the
audit objective were reviewed and analyzed. Throughout the audit,
auditors were aware of the possibility or existence of fraud, waste, or
misuse in the program.

The audit work was conducted by Kathleen Stetson, Team Leader; Eric
Rivera, Audit Manager; Elaine Kolb, Senior Auditor; Dennis Sylvester,
Auditor; John Tornabane, Management Analyst; and Harluxsh Gill,
Summer Intern.




                             20
